No. 20-3890
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
/

FILED

DANIEL LITTLEPAGE,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
TIM SHOOP, Warden,
Respondent-Appellee.

Nov 19, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: McKEAGUE, Circuit Judge.
Daniel Littlepage, a pro se Ohio prisoner, appeals from the district court’s judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Littlepage now
has applied for a certificate of appealability (“COA”). Littlepage also moves for permission to
proceed in forma pauperis (“IFP”).
In 2013, Littlepage pleaded guilty to aggravated murder, and the trial court sentenced him
to life in prison, with parole-eligibility after twenty years. The Ohio Court of Appeals granted
Littlepage*s motion for a delayed direct appeal, and the court subsequently affirmed his conviction
and sentence. State v. Littlepage, No. C-140574 (Ohio Ct. App. Aug. 26, 2015). The Ohio
Supreme Court denied further review.
In 2014, Littlepage filed a state post-conviction petition, which the trial court denied. The
Ohio Court of Appeals affirmed this decision, State v. Littlepage, No. C-140760 (Ohio Ct. App.
Dec. 4, 2015), and Littlepage did not timely appeal this decision to the Ohio Supreme Court.
Littlepage also filed several other post-judgment motions, ail of which were denied.
In 2015, Littlepage filed an application to reopen his direct appeal under Ohio Rule of
Appellate Procedure 26(B) in order to raise ineffective-assistance-of-appellate-counsel claims.

APPENDIX - A

No. 20*3890
-2The Ohio Court of Appeals denied the application, State v. Littlepage, No. C-140574 (Ohio Ct.
App. Jan. 26,2016), and the Ohio Supreme Court denied further review.
In 2017, Littlepage filed his § 2254 petition, alleging that: (1) he did not knowingly,
intelligently, and voluntarily enter his guilty plea; (2) his appellate counsel rendered ineffective
assistance; (3) state post-conviction procedures denied him due process; and (4) he is actually
innocent. Over Littlepage’s objections, the district court adopted the magistrate judge’s reports
and recommendations, Littlepage v. Jenkins, No. 1:16-CV-1005, 2018 WL 806241 (S.D. Ohio
Feb. 9, 2018); Littlepage v. Jenkins, No. 1:16-CV-1005, 2017 WL 6508724 (S.D. Ohio Dec. 20,
2017), dismissed the petition, Littlepage v. Warden, Chillicothe Corr. Inst., No. 1:16-CV-1005,
2020 WL 3957940 (S.D. Ohio July 13, 2020), and denied Littlepage a COA.
Under 28 U.S.C. § 2253(c)(2), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. A petitioner satisfies this standard by demonstrating that reasonable jurists
“could disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further.” Buck v.
Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 327, 336 (2003));
see also Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Initially, it is noted that, in his COA application, Littlepage maintains that the district court
failed to address several claims he raised in his habeas petition, including allegations of judicial
bias and an illegal sentence. However, a review of his § 2254 petition reveals that Littlepage did
not clearly present these issues to the district court, and that the court addressed all of the claims
that Littlepage enumerated in his habeas petition. Because Littlepage failed to raise these claims
properly in the district court, this court will not consider them for the first time on appeal. See
Frazier v. Jenkins, 770 F.3d 485,497 (6th Cir. 2014).
With respect to the claims properly raised in the district court, Littlepage first argues that
his guilty plea was unknowing and involuntary. For Littlepage’s plea to survive constitutional
scrutiny, he must have entered the plea knowingly, voluntarily, and intelligently. See Boykin v.
Alabama, 395 U.S. 238, 242-44 (1969); Fautenberry v. Mitchell, 515 F.3d 614, 636-37 (6th Cir.
2008). A defendant enters into a plea knowingly when he has “sufficient awareness of the relevant

No. 20-3890
-3-

circumstances and likely consequences.” Brady v. United States, 397 U.S. 742, 748 (1970). The
State can satisfy its burden of showing that a defendant’s plea was knowing and voluntary by
producing a transcript of the defendant’s plea proceeding. McAdoo v. Elo, 365 F.3d487,494 (6th
Cir. 2004); Garcia v. Johnson, 991 F.2d 324, 326 (6th Cir. 1993). A plea-proceeding transcript
suggesting that a plea was made voluntarily and intelligently creates a “heavy burden” for a
petitioner seeking to overturn his plea. Garcia, 991 F.2d at 328. The defendant’s guilty plea
colloquy protects against claims that his plea was the result of inadequate advice because the record
can establish that he understood the advantages and disadvantages of the plea and the sentencing
consequences. Missouri v. Frye, 566 U.S. 134, 142 (2012).
Littlepage has not made a substantial showing that his guilty plea was invalid. At the plea
hearing, the prosecutor set forth the facts underlying Littlepage’s conviction, including
Littlepage’s repeated confessions to murdering his brother. Littlepage averred that he was making
the plea of his own free will and that no threats or promises had been made in order to obtain his
plea. The court informed him of the nature of the charge against him and the possible sentences
that he faced. The court also described the rights that Littlepage was waiving by pleading guilty.
Additionally, Littlepage averred that he was not under the influence of drugs or alcohol at the time
of his plea.
While Littlepage now maintains that his attorney improperly pressured him to plead guilty,
he expressly stated at the plea hearing that his guilty plea did not result from any threats or
promises, thereby negating his subsequent claim that he pleaded guilty due to his attorney’s alleged
pressure. See Ramos v. Rogers, 170 F.3d 560, 565 (6th Cir. 1999). Littlepage also argues that he
did not voluntarily confess to the murder; however, once a criminal defendant has pleaded guilty
in open court, he may not raise independent claims relating to the deprivation of constitutional
rights that occurred prior to his plea’s entry. Tollett v. Henderson, 411 U.S. 258, 267 (1973);
Werth v. Bell, 692 F.3d 486,495 (6th Cir. 2012). To the extent that Littlepage contends he received
ineffective assistance of counsel for failing to investigate his case properly, this same rule extends
to pre-plea claims alleging counsel’s ineffectiveness, unless they concern the voluntary or knowing

No. 20-3890
-4-

nature of the defendant’s plea. See United States v. Stiger, 20 F. App’x 307, 308-09 (6th Cir. 2001)
(order). ......
Littlepage next argues that various parts of the state court process failed to comply with
state law, but such a claim is not cognizable on federal habeas review. See Estelle v. McGuire,
502 U.S. 62, 67-68 (1991); Thomas v. Stephenson, 898 F.3d 693, 700 (6th Cir. 2018). To the
extent that Littlepage challenges his post-plea state court proceedings, those claims also do not
provide a basis for federal habeas relief. See Alley v. Bell, 307 F.3d 380,387 (6th Cir. 2002); Kirby
v. Dutton, 794 F.2d 245, 247 (6th Cir. 1986).
Nor has Littlepage made a substantial showing that his appellate counsel rendered
ineffective assistance. While he argues that his appellate counsel was ineffective for failing to
raise numerous issues, his guilty plea waived these various challenges, and appellate counsel is
not ineffective for failing to raise meritless arguments. Coley v. Bagley, 706 F.3d 741, 752 (6th
Cir. 2013).
Lastly, while Littlepage asserts that he did not murder the victim, any freestanding claim
of actual innocence in a non-capital case does not provide a basis for federal habeas relief. See
Hodgson v. Warren, 622 F.3d 591, 601 (6th Cir. 2010).
Accordingly, Littlepage’s COA application is DENIED. His IFP motion is DENIED as
moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-3890
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

DANIEL LITTLEPAGE,

)
)

Petitioner-Appellant,
v.

Feb 02, 2021
DEBORAH S. HUNT, Clerk

)
)
)

ORDER

)

TIM SHOOP, Warden,

)
)

Respondent-Appellee.

)

Before: KETHLEDGE, DONALD, and LARSEN, Circuit Judges.

Daniel Littlepage, a pro se Ohio prisoner, petitions for rehearing of this Court’s
November 19, 2020, order denying his motion for a Certificate of Appealability. We have
reviewed the petition and conclude that this Court did not overlook or misapprehend any point of
law or fact in denying Littlepage’s motion for a Certificate of Appealability. See Fed. R. App. P.
40(a)(2).
Accordingly, the petition for rehearing is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX - C

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 1 of 20 PAGEID #: 1219

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
DANIEL LITTLEPAGE,
Case No. l:16-cv-1005

Petitioner,

District Judge Michael R. Barrett
Magistrate Judge Michael R. Merz

- vs CHARLOTTE JENKINS, Warden,
Chillicothe Correctional Institution,
Respondent.

REPORT AND RECOMMENDATIONS

This is a habeas corpus case, brought pro se by Petitioner Daniel Littlepage under 28
U.S.C. § 2254. The Petition was filed January 26, 2017 (ECF No. 9). The same day Magistrate
Judge Stephanie Bowman ordered the State to file an answer (ECF No. 8). In response the
Warden filed the State Court Record (“SCR”)(ECF No. 13) and a Return of Writ (ECF No. 14).
On July 20, 2017, Petitioner filed his Reply (ECF No. 15).
Petitioner also filed a Motion for a Complete Record to include all papers from his post­
judgment mandamus action to compel discovery and to add Exhibits 16, 28, and 29 (ECF No.
16). The Magistrate Judge granted that Motion to the extent of ordering that state court decisions
in the mandamus action be produced.

Having examined those decisions and considered

Petitioner’s argument for including the entire file (ECF No. 23), the Magistrate Judge concludes
no further filings from the mandamus action are needed to adjudicate this habeas corpus case.
The appellate decisions filed by Respondent show that Mr. Littlepage never obtained any
1

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 2 of 20 PAGEID #: 1220

relief in his mandamus action. This is because, as the Ohio Supreme Court held, discovery is a
pre-trial right only. State ex rel Littlepage v. Deters, 148 Ohio St. 3d 507, ^ 6 (2016). Brady v.
Maryland, 373 U.S. 83 (1963) does not apply post-conviction.

District Attorney for Third

Judicial District v. Osborne, 557 U.S. 52, 68-69 (2009). There is no Brady violation by failure
to disclose impeachment information before guilty plea. United States v. Ruiz, 536 U.S. 622,
633 (2002).
Mr. Littlepage emphasizes that his attorney made a timely demand for discovery and
motion for Brady material; copies with Littlepage’s handwritten notes are attached to ECF No.
23.

Ordinarily discovery in a criminal case would be made to defense counsel, not to the

defendant himself, but Littlepage offers no proof from his attorney that he (Burke) did not
received discovery.

On the other hand, if Littlepage believed he needed discovery before

pleading guilty, it was incumbent on him to say so. If there was a Brady violation prior to the
plea, it, along with other pre-plea constitutional violations, was waived in the plea process.
Littlepage also insists that Judge Nadel’s handwritten entry denying a motion for delayed
appeal (ECF No. 23-1, PagelD 1204) is somehow a fraud on the Court does not state a claim for
habeas relief. There is no fraud at all evident in that entry. The Court declines to expand the
record further by ordering the addition of more material from the mandamus proceeding.

Procedural History

On July 26, 2013, the Hamilton County grand jury indicted Petitioner Littlepage on one
count of murder and one count of aggravated murder, both with firearm specifications, arising
out of the July 18, 2013, death of Petitioner’s brother Larry Littlepage.

2

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 3 of 20 PAGEID #: 1221

After some pretrial litigation, Littlepage entered into a plea agreement whereby he would
plead to the aggravated murder charge and one firearm specification with the remaining count
and specification dismissed.

The trial judge sentenced Petitioner to life imprisonment with

parole eligibility at twenty years plus three consecutive years for the firearm specification.
Littlepage was sentenced in mid-January 2014, and took no direct appeal within the thirty
days allowed for that process. However, in October 2014 the First District Court of Appeals
granted his motion for delayed direct appeal and appointed counsel.

Counsel briefed one

assignment of error claiming the guilty plea was not knowing, intelligent, and voluntary. The
First District, however, affirmed the conviction. State v. Littlepage, No. C-140574 (1st Dist.
Aug. 26, 2015)(unreported; copy at ECF No. 13, PagelD 550 et seq.), Littlepage appealed to the
Ohio Supreme Court, but that court declined to exercise appellate jurisdiction.

State v.

Littlepage, 144 Ohio St. 3d 1429 (2015), cert, denied sub. nom. Littlepage v. Ohio, Case No. 158649, 136 S.Ct. 22383, 195 L.Ed.2d 270 (2016)(copy at ECF No. 13, PagelD 609).
In August 2014, Littlepage filed a petition for post-conviction relief under Ohio Revised
Code § 2953.21, which the trial court denied (SCR, ECF No. 13, PagelD 457). That denial was
affirmed on appeal. State v. Littlepage, No. C-140760 (1st Dist., Dec. 4, 2015)(unreported; copy
at SCR, ECF No. 13-1, PagelD 879-81.) Petitioner did not timely appeal and the First District
denied a motion to re-file the dismissal to allow an appeal (SCR, ECF No. 13-1, PagelD 882-96,
PagelD 897).
Littlepage filed an appeal from denial of his petition for post-conviction relief in
December 2014. The First District considered the appeal on the merits, but affirmed dismissal of
the petition. State v. Littlepage, No. 140760 (1st Dist. Dec. 4, 2015)(unreported; copy at ECF

3

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 4 of 20 PAGEID #: 1222

No. 13, PagelD 879 et seq.) Littlepage has also filed post-judgment motions for new trial and to
withdraw guilty plea, for DNA testing, to correct his sentence, and for release of grand jury
testimony, none of which have been successful.
In November 2015, Littlepage filed an application to reopen the direct appeal under Ohio
R. App. P. 26(B) to raise claims of ineffective assistance of appellate counsel. The First District
denied the application. State v. Littlepage, No. C-140574 (unreported; copy at ECF No. 13,
PagelD 648, et seq.). The Ohio Supreme Court declined jurisdiction over a subsequent appeal.
State v. Littlepage, 145 Ohio St. 3d 1461 (2016).
Mr. Littlepage then filed his Petition for Writ of Habeas Corpus in this Court, pleading
three grounds for relief:
GROUND 1: The Ohio State lower courts erred and abused their
discretion by affirming the Judgment of the Trial Court; without a
De Novo review, when the Record supports that Petitioner’s guilty
plea was not made knowingly, intelligently or voluntarily and, in
fact, was logically inconsistent with the facts and not supported by
the evidence; as Petitioner is innocent.

GROUND 2: It is error and an abuse of discretion for the Ohio
State Courts; especially the Court of Appeals, to ignore the clear
evidence of ineffective assistance of Appellate Counsel on a Direct
Appeal; after granting Petitioner's Motion to remove the same
Appellate Counsel; who filed an Ander’s [sic] Brief in support of
Post-conviction Relief as well as error and abuse of discretion to
Deny his Application to Reopen Direct Appeal under App. R.
26(B); when the Petitioner established a genuine issue as to
whether he has a colorable claim of ineffective assistance of
appellate counsel. See State v. Mumahan, 63 Ohio St. 3d 60
(1992). Further, the evidence presented did support that Petitioner
was denied effective assistance; in that appellate counsel
performed deficiently, by failing to raise arguments and
assignments of error that had a reasonable probability of success
had counsel presented those claims on appeal. See State v.
Bradley, 42 Ohio St.3d 136 (1989).

4

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 5 of 20 PAGEID #: 1223

GROUND 3: In light of the procedural errors and omissions, the
Petitioner was denied due process and fair proceedings; but due to
the ineffective assistance of both trial and appellate counsel, his
claims were not argued or presented; leaving his only option, A
Petition for State Writ of Habeas Corpus pursuant to O.R.C.
Section 2725.03, to assert that he is being unlawfully restrained of
his liberty by the State of Ohio. See In Re Lockhart, 157 Ohio
St.192 (1952); which held that a State Habeas Action was the
appropriate vehicle to secure relief from an illegal and void
sentence. Here, the constitutional violations, deprivations of
substantial rights, and cumulative errors present in his state court
proceedings rise to the level of Plain or Reversible Error. See
Crim.R. 52(B). These errors must now be reviewed by this Federal
District Court to prevent a fundamental miscarriage of justice.
Engle v. Isaac, 456 U.S. 107 (1982)
(Petition, ECF No. 9, PagelD 192, 198, 203.)

Analysis

Ground One: Invalid Guilty Plea

Mr. Littlepage asserts his guilty plea was not knowing, intelligent, and voluntary and that
his conviction is supported by insufficient facts in that he is actually innocent.
Warden Jenkins defends this Ground for Relief on the merits and does not raise any
procedural defense (Return of Writ, ECF No. 14, PagelD 1119-26).
Mr. Littlepage’s Reply is not organized around his three Grounds for Relief but
intersperses arguments about his plea with accusations of ineffective assistance of trial counsel,
ineffective assistance of appellate counsel, fraud on the court by the trial judge, failure to
5

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 6 of 20 PAGEID #: 1224

produce evidence under Brady v. Maryland, 373 U.S. 83 (1963), etc. Most confusing is a lack of
clear chronology which would enable this Court to discern what Mr. Littlepage claims happened
and when. This Report will attempt to organize the material in the Petition and Traverse around
the claims actually made.
Mr. Littlepage’s First Ground for Relief asserts that his plea of guilty was not knowing,
intelligent, and voluntary. A plea of guilty or no contest is valid if, but only if, it is entered
voluntarily and intelligently, as determined by the totality of the circumstances. Brady v, United
States, 397 U.S. 742, 748 (1970); Boykin v. Alabama, 395 U.S. 238, 242-44 (1969); King v.
Dutton, 17 F.3d 151 (6th Cir. 1994); Riggins v. McMackin, 935 F.2d 790, 795 (6th Cir. 1991);
Berry v. Mintzes, 726 F.2d 1142, 1146 (6th Cir. 1984). The determination of whether this plea
was intelligently made depends upon the particular facts and circumstances of this case. Johnson
V. Zerbst, 304 U.S. 458, 463 (1938); Garcia v. Johnson, 991 F.2d 324, 326 (6th Cir. 1993).
A plea of guilty entered by one fully aware of the direct
consequences, including the actual value of any commitments
made to him by the court, prosecutor, or his own counsel, must
stand unless induced by threats (or promises to discontinue
improper harassment), misrepresentation (including unfulfilled or
unfulfillable promises), or perhaps by promises that are by their
nature improper as having no proper relationship to the
prosecutor's business (e. g. bribes).

Brady v. United States, 397 U.S. 742, 755 (1970), quoting Shelton v. United States, 242 F.2d
101, 115 (5th Cir. 1957).1 The voluntariness of a guilty plea is determined in light of all relevant
circumstances surrounding the plea.

Brady, 397 U.S. at 749.

If a prosecutor’s promise is

illusory, then a plea is involuntary and unknowing. United States v. Randolph, 230 F.3d 243,

1 Shelton was later reversed by the en banc Fifth Circuit, 246 F.2d 571 (5th Cir. 1957), but in a memorandum
opinion, the Supreme Court reversed that decision and remanded the case to the district court for further
proceedings, 356 US. 26 (1958).
6

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 7 of 20 PAGEID #: 1225

250-51 (6th Cir. 2000). Where a defendant is “fully aware of the likely consequences” of a plea,
however, it is not unfair to expect him to live with those consequences. Mabry v. Johnson, 467
U.S. 504, 511 (1984). A plea-proceeding transcript which suggests that a guilty or no contest
plea was made voluntarily and knowingly creates a “heavy burden” for a petitioner seeking to
overturn his plea. Garcia v. Johnson, 991 F.2d 324, 326-28 (6th Cir. 1993). Where the transcript
shows that the guilty or no contest plea was voluntary and intelligent, a presumption of
correctness attaches to the state court findings of fact and to the judgment itself. Id. at 326-27.
A court cannot rely on the petitioner’s alleged “subjective impression” “rather than the
bargain actually outlined in the record,” for to do so would render the plea colloquy process
meaningless. Ramos v. Rogers, 170 F.3d 560, 566 (6th Cir. 1999). If the plea colloquy process
were viewed in this light, any defendant who alleged that he believed the plea bargain was
different from that outlined in the record would have the option of withdrawing his plea despite
his own statements during the plea colloquy indicating the opposite. Id.
By entering a plea of guilty, the accused is not simply stating that he did the discrete acts
described in the indictment; he is admitting guilt of a substantive crime. United States v. Broce,
488 U.S. 563, 570 (1989); McCarthy v. United States, 394 U.S. 459, 466 (1969).
As part of the State Court Record, Respondent has filed a transcript of the plea hearing
(Transcript, ECF No. 13-2). The hearing began with a statement by the prosecutor of the facts of
the crime. He recited that Larry Littlepage, the victim, was shot three times (once in the
abdomen and twice in the head) at his home on Pippin Road in Colerain Township on July 18,
2013. Id. at PagelD 1081. The body was found the next day. On July 20, 2013, Petitioner sent
text messages to multiple members of his family confessing that he had planned the murder and
then carried it out. Id. at PagelD 1082. Police found Petitioner at Mount Airy Hospital in the

7

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 8 of 20 PAGEID #: 1226

chapel, having overdosed on sleeping pills. Id. Next to him the police found a digital recorder
with a lengthy confession to the murder. Id. at PagelD 1082-83. After he was restored to
consciousness by hospital personnel, he was Mirandized and he again confessed. Id. This
process was repeated after his release from the hospital. Id. at PagelD 1083. Mr. Littlepage
stated his motive for killing his brother arose from a family dispute following his father’s death
in 2010. Id.
Judge Nadel then asked Littlepage if he was pleading guilty of his own free will and he
responded that he was. Id. at PagelD 1084. Putting the matter the other way around, Judge
Nadel asked him if anyone had “made any threats, promises, or anything like that to get you to
plea[d]” and he responded “no, sir.” Id.
Judge Nadel then advised Littlepage of the possible sentences, life without parole or life
with parole eligibility after twenty, twenty-five, or thirty years. (Transcript, ECF No. 13-2,
PagelD 1085.) He then mentioned that there could be a fine of up to $25,000 and that there
would be a mandatory consecutive sentence of three years on the gun specification. Id. at
PagelD 1084. Judge Nadel also discussed the written plea form and confirmed that Littlepage
had signed it of his own free will. Id. at PagelD 1087. He obtained an acknowledgement from
Littlepage that “by pleading guilty, you make a complete admission of your guilt.” Id. Judge
Nadel explained the rights being waived by the plea and Littlepage’s understanding that he was
giving up those rights by pleading guilty. Id. at PagelD 1088. Mr. Littlepage affirmed that he
was not under the influence of drugs or alcohol. Id. The Judge then accepted the guilty plea. Id.
On appeal Littlepage raised a single assignment of error, to wit, that his plea was not made
knowingly, intelligently, and voluntarily because Judge Nadel did not comply with Ohio R.
Crim. P. 11(C)(2)(A) by advising him that he was not eligible for community control {State v.

8

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 9 of 20 PAGEID #: 1227

Littlepage, No. C-140574 (1st Dist. Aug. 26, 2015), SCR, Ex. 35, PagelD 550).

He made

additional arguments about not making a separate plea to the firearm specification and not being
told he would not be permitted to ingest drugs of abuse in prison and would be subject to random
drug testing while incarcerated. The First District found that none of these recitals was necessary
under Ohio Crim. R. 11 and affirmed the conviction.
As the law cited above makes clear, the question of whether a plea was knowing,
intelligent, and voluntary is a question of federal constitutional law. That is to say, a person who
is convicted and sentenced on a guilty plea that is not knowing, intelligent, and voluntary has
been deprived of due process of law as guaranteed by the Fourteenth Amendment. Ohio R.
Crim. P. 11 is designed to protect that due process right by ensuring that guilty pleas are
constitutional.
When a state court decides on the merits a federal constitutional claim later presented to a
federal habeas court, the federal court must defer to the state court decision unless that decision
is contrary to or an objectively unreasonable application of clearly established precedent of the
United States Supreme Court. 28 U.S.C. § 2254(d)(1); Harrington v. Richter, 562 U.S. 86, 100
(2011); Brown v. Payton, 544 U.S. 133, 140 (2005); Bell v. Cone, 535 U.S. 685, 693-94 (2002);
Williams (Terry) v. Taylor, 529 U.S. 362, 379 (2000). Deference is also not required if the state
court decision “is based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceedings.” 28 U.S.C. § 2254(d)(2).
The question of whether a plea was knowing, intelligent, and voluntary is a question of
fact on which a state court finding is entitled to deference in the absence of clear and convincing
evidence to the contrary. Certainly on the face of the Plea Transcript there is no evidence that
the plea was invalid. Littlepage heard the facts as recited by the prosecutor and made no claim

9

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 10 of 20 PAGEID #: 1228

they were in error. He heard the nature of the charge and the possible sentences and the rights he
would be giving up by pleading guilty. Nothing that was before the trial court or the First
District on direct appeal rebuts a finding that the plea was constitutionally valid.
Ohio allows a person who contends his conviction was unconstitutionally obtained to file
a petition for post-conviction relief under Ohio Revised Code § 2953.21 and Littlepage did so.
In his Petition, his first claim was that he received ineffective assistance of trial counsel from his
trial attorney, Daniel F. Burke, Jr., because Burke “coerced him into pleading guilty . . . failed to
investigate my claims, perfect evidence, or gather Brady materials.” (ECF No. 13, PagelD 271.)
As evidence he referred to his own attached Affidavit, “photos gathered after trial, drug
information showing my diminished capacity, and e-mails from deceaced’s [sic] son.” Id. In his
claim number two, he asserted Judge Nagel was biased against him; that the judge’s conduct
prevented him from presenting his defense of innocence; that his diminished capacity was
evident from his attempted suicide at the Justice Center;and that his plea was coerced by his
attorney, the prosecutor, and the “judge’s bias and prejudice.” In claim number three he alleged
prosecutorial misconduct by (1) coercing the plea of guilty while knowing of his diminished
capacity, (2) refusing to investigate his claims of innocence, and (3) refusal to turn over Brady
materials including gunshot residue test results.
The Petition is supported by a seventy-three paragraph affidavit of Daniel Littlepage
(executed on July 28, 2014) in which he claims he was present when his brother Gary shot the
victim, but he was just listening and did not actually see the shooting. He admits that he went to
the victim’s house on July 18, 2013, the day of the killing, to confront the victim over being sued
by the victim and other siblings for part of his father’s estate; his father had died in 2010. He
admits that after the shooting he went home, had a confrontation with his wife, and attempted

10

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 11 of 20 PAGEID #: 1229

suicide by consuming seventy 30mg tablets of Temazepam.

Littlepage asked for the

appointment of an investigator and a “reconstructionist” who he said would find physical
evidence to confirm his version of the events. Other attachments are a set of photographs of the
house where the murder occurred, the purported contents of emails from the deceased’s son
which are not facially exculpatory, and lengthy public domain materials describing possible side
effects of Temazepam.
In his Reply Memorandum in support of his Petition, he refers to conversations his
attorneys had with his daughter and provides an affidavit from his wife recounting a conversation
in which Daniel Burke, one of his trial attorneys, said he was not going to take the pictures of
Larry Littlepage’s house that Petitioner had requested (ECF No. 13, PagelD 380). She avers that
she herself took the pictures, the ones attached to the Petition. A parallel affidavit from Monica
Littlepage, Petitioner’s daughter, was also filed. Id. at PagelD 381. There is also an attached
letter from a Doctor Dirk Hines who treated Petitioner with antidepressants and the Temazepam.
Id. at PagelD 383. He makes no comments about any likelihood of medication effects at the
time of Littlepage’s plea.
On appeal from Judge Nadel’s denial of the post-conviction petition, the First District
held as follows:
Neither the record of the proceedings leading to Littlepage's
conviction upon his plea nor the outside evidence offered in
support of his postconviction claims demonstrate that his plea was
the unknowing, involuntary, or unintelligent product of his trial
counsel's ineffectiveness, the trial judge's predisposition against
him, prosecutorial misconduct, or any medication that he was
taking.
Thus, Littlepage, by his guilty plea, waived those challenges to his
conviction that were unrelated to the entry of his plea. And with
respect to his challenges to the knowing, voluntary, and intelligent
nature of his plea, he failed to sustain his burden of submitting
11

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 12 of 20 PAGEID #: 1230

evidentiary material setting forth sufficient operative facts to
demonstrate substantive grounds for relief. We, therefore, hold that
the common pleas court properly denied Littlepage's
postconviction petition without an evidentiary hearing. See R.C.
2953.21(C) and (E); State v. Pankey, 68 Ohio St.2d 58, 428 N.E.2d
413 (1981); State v. Jackson, 64 Ohio St.2d 107, 413 N.E.2d 819
(1980). Accordingly, we overrule the assignments of error and
affirm the court's judgment.

State v. Littlepage, No. C-140760 (1st Dist. Dec. 4, 2015)(unreported; copy at ECF No. 13-1,
PagelD 881).
This decision is not based on an unreasonable determination of the facts based on the
evidence presented. Littlepage made no protest of innocence at the time of his plea or at the time
of sentencing. The photographs he wanted Burke to take do not demonstrate anything about his
innocence; the captions he has added to them are of course unsworn hearsay.

It does not

constitute ineffective assistance of trial counsel to fail to gather evidence which, while it might
have supported Littlepage’s eventual narrative about what happened, in themselves prove
nothing. Nothing in his post-conviction filings shows he would have been under the influence of
Temezapam when he made his plea and of course he swore to Judge Nadel that he was not under
the influence of any drug. More importantly, his affidavit is, as Judge Nadel found, very selfserving. He admits being present when the victim was shot and being armed at the time. He
admits a motive to confront the victim over what happened with his father’s estate. He offers no
motive for Gary Littlepage to have shot the victim when apparently Gary and Larry were among
the siblings against whom Daniel had a grudge. He offers no proof of any coercion by his trial
attorney, the prosecutor, or Judge Nadel. Nor does he offer any explanation of his pre-custody
recorded confession or of his emails to family members admitting the murder.

Because

Littlepage’s post-conviction petition does not present evidence sufficient to overcome his solemn

12

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 13 of 20 PAGEID #: 1231

admission of guilt at the plea colloquy, the Magistrate Judge finds that the conclusion of the
Ohio courts that the plea was knowing, intelligent, and voluntary is not an unreasonable
determination of the facts on the basis of the evidence presented.
The First Ground for Relief is therefore without merit.

Ground Two: Ineffective Assistance of Appellate Counsel

In his Second Ground for Relief, Littlepage claims he received ineffective assistance of
appellate counsel.
The governing standard for ineffective assistance of counsel is found in Strickland v.
Washington, 466 U.S. 668 (1984):

A convicted defendant's claim that counsel's assistance was so
defective as to require reversal of a conviction or death sentence
has two components. First, the defendant must show that counsel's
performance was deficient. This requires showing that counsel
was not functioning as the "counsel" guaranteed the defendant by
the Sixth Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires
showing that counsel's errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is reliable. Unless a
defendant makes both showings, it cannot be said that the
conviction or death sentence resulted from a breakdown in the
adversary process that renders the result unreliable.
466 U.S. at 687. In other words, to establish ineffective assistance, a defendant must show both
deficient performance and prejudice. Berghuis v. Thompkins, 560 U.S. 370, 389 (2010), citing
Knowles v. Mirzayance, 556 U.S. 111 (2009).
With respect to the first prong of the Strickland test, the Supreme Court has commanded:
Judicial scrutiny of counsel's performance must be highly
deferential. ... A fair assessment of attorney performance requires
13

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 14 of 20 PAGEID #: 1232

that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from counsel's perspective at
the time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption that
counsel’s conduct falls within a wide range of reasonable
professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action
"might be considered sound trial strategy."
466 U.S. at 689.
As to the second prong, the Supreme Court held:
The defendant must show that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is
a probability sufficient to overcome confidence in the outcome.
466 U.S. at 694. See also Darden v. Wainwright, All U.S. 168 (1986); Wong v. Money, 142
F.3d 313, 319 (6th Cir. 1998); Blackburn v. Foltz, 828 F.2d 1177 (6th Cir. 1987). See generally
Annotation, 26 ALR Fed 218.
A criminal defendant is entitled to effective assistance of counsel on appeal as well as at
trial, counsel who acts as an advocate rather than merely as a friend of the court. Evitts v. Lucey,
469 U.S. 387 (1985); Penson v. Ohio, 488 U.S. 75 (1988); Mahdi v. Bagley, 522 F.3d 631, 636
(6th Cir. 2008). Counsel must be appointed on appeal of right for indigent criminal defendants.
Douglas v. California, 372 U.S. 353 (1963); Anders v. California, 386 U.S. 738 (1967); United
States v. Cronic, 466 U.S. 648 (1984). The right to counsel is limited to the first appeal as of
right. Ross v. Moffitt, 417 U.S. 600 (1974). The Strickland test applies to appellate counsel.
Smith v. Robbins, 528 U.S. 259, 285 (2000); Burger v. Kemp, 483 U.S. 776 (1987). To evaluate
a claim of ineffective assistance of appellate counsel, then, the court must assess the strength of
the claim that counsel failed to raise. Henness v. Bagley, 644 F.3d 308 (6th Cir. 2011), citing
Wilson v. Parker, 515 F.3d 682, 707 (6th Cir. 2008). Counsel’s failure to raise an issue on appeal
14

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 15 of 20 PAGEID #: 1233

amounts to ineffective assistance only if a reasonable probability exists that inclusion of the issue
would have changed the result of the appeal. Id., citing Wilson. If a reasonable probability
exists that the defendant would have prevailed had the claim been raised on appeal, the court still
must consider whether the claim's merit was so compelling that the failure to raise it amounted to
ineffective assistance of appellate counsel. Id., citing Wilson. The attorney need not advance
every argument, regardless of merit, urged by the appellant. Jones v. Barnes, 463 U.S. 745, 751752 (1983)("Experienced advocates since time beyond memory have emphasized the importance
of winnowing out weaker arguments on appeal and focusing on one central issue if possible, or
at most on a few key issues." 463 U.S. 751-52).

Effective appellate advocacy is rarely

characterized by presenting every non-frivolous argument which can be made. Joshua v. DeWitt,
341 F.3d 430, 441 (6th Cir. 2003); Williams v. Bagley, 380 F.3d 932, 971 (6th Cir. 2004), cert.
denied, 544 U.S. 1003 (2005); see Smith v. Murray, All U.S. 527 (1986).
As with all other claims presented in federal habeas, a claim of ineffective assistance of
appellate counsel must first be presented to the state courts. Littlepage did so in the way required
by Ohio law, by submitting an Application to Reopen his direct appeal under Ohio R. App. P.
26(B).

The First District considered that Application on the merits and denied it. State v.

Littlepage, No. C-140574 (1st Dist. Jan 26, 2016)(unreported; copy at SCR, ECF No. 13, PagelD
648-50.) Noting that Littlepage had pleaded guilty to aggravated murder, the First District
further recorded that appellate counsel had raised only one assignment of error, “contending that
Littlepage’s guilty plea was not knowing, voluntary, or intelligent.” Id. at PagelD 649. The First
District decided the ineffective assistance of appellate counsel claim as follows:
In his application to reopen this appeal, Littlepage contends that
his appellate counsel was ineffective in presenting in his brief
"only a far reaching speculative technical issue, without
Assignments of Error such as: (A) Miranda Violations; (B) Weight
15

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 16 of 20 PAGEID #: 1234

and Sufficiency of Evidence; (C) Diminished Capacity; (D) Actual
Innocence; (E) Interview Suppression; and (F) Ineffective
Assistance of Trial Counsel."
By his knowing, voluntary, and intelligent guilty plea, Littlepage
waived his proposed actual-innocence, diminished-capacity, and
weight-and-sufficiency claims. See Crim.R. 11(B)(1) (providing
that a guilty plea is a complete admission of guilt); State v. Wilson,
58 Ohio St.2d 52, 388 N.E.2d 745 (1979), paragraph one of the
syllabus (holding that "a counseled plea of guilty is an admission
of factual guilt which removes issues of factual guilt from the
case"). He also waived his proposed Fourth Amendment
challenges. See State v. Spates, 64 Ohio St.3d 269, 272, 595
N.E.2d 351 (1992), quoting Tollett v. Henderson, 411 U.S. 258,
267, 93 S.Ct. 1602, 36 L.Ed.2d 235 (1973) (holding that a
knowing, voluntary, and intelligent guilty plea waives any
"independent claims relating to the deprivation of constitutional
rights that occurred prior to the entry of the guilty plea"). And he
waived all challenges to his trial counsel’s ineffectiveness
unrelated to the knowing, involuntary, or intelligent nature of his
guilty plea. See id. Accordingly, appellate counsel cannot be said
to have been ineffective in failing to assign these matters as error
on appeal.
Nor was appellate counsel ineffective in failing to assign as error
trial counsel’s ineffectiveness in counseling Littlepage’s guilty
plea. The proposed challenge depends for its resolution upon
evidence outside the trial record. Therefore the appropriate vehicle
for advancing it is a postconviction petition. See State v. Perry, 10
Ohio St. 2d 175, 226 N.E. 2d 104 (1967), paragraph nine of the
syllabus.

Id. at PagelD 649-50.
Littlepage argues he was prejudiced by appellate counsel’s performance because he was
not able to argue his additional assignments of error (Petition, ECF No. 9, PagelD 197). The
First District actually decided the ineffective assistance of appellate counsel claim on the first
Strickland prong, holding there was no deficient performance in failing to raise assignments of
error whose consideration was blocked by the res judicata rule in State v. Perry.
Here, as with the First Ground for Relief, this Court must defer to the state court
16

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 17 of 20 PAGEID #: 1235

conclusion unless it is an objectively unreasonable application of clearly established Supreme
Court precedent. Terry Williams v. Taylor, 529 U.S. 362, 409-13 (2000). The Magistrate Judge
concludes the decision was not objectively unreasonable.

It applied the correct federal

constitutional standard under Strickland. It found that the omitted assignments of error could not
have been heard because of the guilty plea and the State v. Perry bar.

This was a correct

application of Tollett v. Henderson, supra. The Sixth Circuit has repeatedly held that the res
judicata rule of State v. Perry is an adequate and independent state ground of decision. Durr v.
Mitchell, 487 F.3d 423, 432 (6th Cir. 2007); Buell v. Mitchell, 274 F.3d 337 (6th Cir. 2001);
Coleman v. Mitchell, 268 F.3d 417 (6th Cir. 2001); Byrdv. Collins, 209 F.3d 486, 521-22 (6th Cir.
2000); Rust v. Zent, 17 F.3d 155, 160-61 (6th Cir. 1994)(citation omitted); Van Hook v.
Anderson, 127 F. Supp. 2d 899, 913 (S.D. Ohio 2001).
Accordingly, the Second Ground for Relief is without merit.

Ground Three: Cumulative Error/Inadequate State Review

In his Third Ground for Relief, Mr. Littlepage seems to be claiming that all of the errors
in his trial and appellate court proceedings, taken together, entitle him to habeas corpus relief.2
After enactment of the Antiterrorism and Effective Death Penalty Act in 1996, a claim of
cumulative error is not cognizable in habeas corpus. Sheppard v. Bagley, 657 F.3d 338, 348 (6th
Cir. 2011), cert, denied, 132 S.Ct. 2751 (2011), citing Moore v. Parker, 425 F.3d 250, 256 (6th
Cir. 2005), cert, denied sub nom. Moore v. Simpson, 549 U.S. 1027 (2006).
Moreland argues that the cumulative effect of counsel's errors
should be considered in determining whether he has demonstrated
2 Littlepage makes a reference in the text of his Ground Three to a state action for habeas corpus. He has never filed
such an action, so far as the record discloses.
17

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 18 of 20 PAGEID #: 1236

a reasonable probability of a more favorable outcome. However,
"post-AEDPA, not even constitutional errors that would not
individually support habeas relief can be cumulated to support
habeas relief." Hoffner v. Bradshaw, 622 F.3d 487, 513 (6th Cir.
2010) (quoting Moore v. Parker, 425 F.3d 250, 256 (6th Cir.
2005)).
Moreland v. Bradshaw, 699 F.3d 908, 931 (6th Cir. 2012), cert, denied sub nom. Moreland v.
Robinson, 134 S.Ct. 110 (2013).
Similarly, a claim that a state court review process is inadequate is also not cognizable in
habeas corpus. Kirby v. Dutton, 794 F.2d 245 (6th Cir. 1986)(claims of denial of due process and
equal protection in collateral proceedings not cognizable in federal habeas because not
constitutionally mandated).

Littlepage’s Claim of Actual Innocence

Throughout his pleadings in this case and previously in the state court proceedings,
starting at least with his petition for post-conviction relief, Littlepage has claimed that he is
actually innocent of the murder of his brother Larry because the murder was actually committed
by his brother Gary.
As the Warden points out, a free-standing claim of actual innocence will not support
habeas corpus relief. Herrera v. Collins, 506 U.S. 390, 408-11 (1993).
Case law in the Sixth Circuit establishes that the Supreme Court of
the United States has never recognized a free-standing or
substantive actual innocence claim. Cress v. Palmer, 484 F.3d 844,
854 (6th Cir. 2007), citing Zuern v. Tate, 336 F.3d 478, 482, n.l
(6th Cir. 2003), and Staley v. Jones, 239 F.3d 769, 780, n.12 (6th
Cir. 2001). The Supreme Court has twice suggested that a "truly
persuasive demonstration" of actual innocence would render a

18

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 19 of 20 PAGEID #: 1237

petitioner's execution unconstitutional. Herrera v Collins, 506 U.S.
390, 417 (1993); House v. Bell, 547 U.S. 518 (2006).
Raymond v. Sheets, 2012 U.S. Dist. LEXIS 160374, *26-27 (S.D. Ohio Nov. 8, 2012); Stojetz v.
Ishee, 2014 U.S. Dist. LEXIS 137501 *185-86 (S.D. Ohio Sept. 24, 2014)(Frost, D.J.).
The federal courts will recognize evidence of actual innocence as excusing procedural
default of some other constitutional claim or as extending the statute of limitations. McQuiggin
v. Perkins, 569 U.S. 383 (2013). However, Littlepage does not present an actual innocence
claim of this sort. Instead, he claims that because he is actually innocent, he must be released or
at least given a trial.
As the First District has explained but Petitioner seems not to understand, a plea of guilty
which is knowing, intelligent, and voluntary waives any right to a trial, to the presumption of
innocence, to present evidence, etc. Mr. Littlepage was not denied an opportunity to have a trial
or present evidence. Instead, he waived those rights by pleading guilty. While he claims he has
never wavered in his claim of innocence, that is not accurate. He appeared in open court and
solemnly admitted that he was guilty. Before that happened, he had made the digital recording
of a confession before he took the overdose. After he recovered from the overdose, he confessed
twice more. At the sentencing hearing, he twice apologized for what he had done. When Judge
Nadel asked him why he killed his brother, he said it was “[j]ust a lot of stuff going on.”
(Transcript, SCR, ECF No. 13-3, PagelD 1095). Later in the colloquy Littlepage said he was
sorry it ever happened. Id. at 1097. At no point in the proceeding did he claim he was innocent.

Conclusion

19

Case: l:16-cv-01005-MRB-MRM Doc #: 24 Filed: 12/20/17 Page: 20 of 20 PAGEID #: 1238

Based on the foregoing analysis, it is respectfully recommended that the Petition be
dismissed with prejudice. Because reasonable jurists would not disagree with this conclusion,
Petitioner should be denied a certificate of appealability and the Court should certify to the Sixth
Circuit that any appeal would be objectively frivolous and therefore should not be permitted to
proceed in forma pauperis.

December 20, 2017.

s/ MicfuieCTL Merz
United States Magistrate Judge

NOTICE REGARDING OBJECTIONS

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written objections to the
proposed findings and recommendations within fourteen days after being served with this Report
and Recommendations. Pursuant to Fed. R. Civ. P. 6(d), this period is extended to seventeen
days because this Report is being served by mail. .Such objections shall specify the portions of
the Report objected to and shall be accompanied by a memorandum of law in support of the
objections. If the Report and Recommendations are based in whole or in part upon matters
occurring of record at an oral hearing, the objecting party shall promptly arrange for the
transcription of the record, or such portions of it as all parties may agree upon or the Magistrate
Judge deems sufficient, unless the assigned District Judge otherwise directs. A party may
respond to another party’s objections within fourteen days after being served with a copy thereof.
Failure to make objections in accordance with this procedure may forfeit rights on appeal. See
United States v. Walters, 638 F.2d 947, 949-50 (6th Cir. 1981); Thomas v. Am, 474 U.S. 140,
153-55 (1985).

20

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 1 of 13 PAGEID #: 1372

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Daniel Littlepage
Petitioner,
Case No. 1:16cv1005

v.

Judge Michael R. Barrett

Warden,
Chillicothe Correctional Institution
Respondent.
ORDER

This matter is before the Court on the Magistrate Judge’s December 20, 2017
Report and Recommendation (“R&R”) (Doc. 24) and February 9, 2018 Order Denying
Motion for Stay and Abeyance; Supplemental R&R (Doc. 29).

Petitioner has filed

objections to the Magistrate Judge’s R&Rs. (Docs. 27, 31).

I.

BACKGROUND

Petitioner brings this habeas corpus action pursuant to 28 U.S.C. § 2254. In the
underlying state court proceedings, Petitioner was indicted for one count of murder and
one count of aggravated murder, both with firearm specifications, arising out of the death
of his brother Larry Littlepage. Petitioner plead guilty to aggravated murder and one
firearm specification.

Petitioner was sentenced to life imprisonment with parole

eligibility at twenty years, plus three consecutive years for the firearm specification.
Petitioner claims three grounds for relief: (1) his guilty plea was invalid; (2)
ineffective assistance of appellate counsel; and (3) cumulative error. Petitioner also
claims that he is actually innocent of the murder of his brother Larry because the murder
was committed by his other brother, Gary.

Case: l:16-cv-01005-MRB-MRM Doc#: 34 Filed: 07/13/20 Page: 2 of 13 PAGEID #: 1373

In the December 20, 2017 R&R, the Magistrate Judge recommends denying the
petition with prejudice. In the February 9, 2018 Order, the Magistrate Judge denied
Petitioner’s Motion for Stay and Abeyance.1

In the Supplemental R&R, the Magistrate

Judge again recommends that the Petition be dismissed with prejudice. The Magistrate
Judge also recommends that Petitioner be denied a certificate of appealability, and that
this Court certify to the Sixth Circuit that any appeal would be objectively frivolous and
should not be permitted to proceed in forma pauperis.
II.

ANALYSIS
A. Standard of review

When timely objections to a magistrate judge’s order are received on a dispositive
matter, the assigned district judge “must determine de novo any part of the magistrate
judge’s disposition that has been properly objected to.” Fed. R. Civ. P. 72(b)(3). After
review, the district judge “may accept, reject, or modify the recommended decision;
receive further evidence; or return the matter to the magistrate judge with instructions.”
Id/, see also 28 U.S.C. § 636(b)(1). General objections are insufficient to preserve any
issues for review: “[a] general objection to the entirety of the Magistrate [Judgej’s report
has the same effect as would a failure to object.” Howard v. Sec'y of Health & Human
Servs., 932 F.2d 505, 509 (6th Cir. 1991). Nevertheless, the objections of a petitioner
appearing pro se will be construed liberally. See Erickson v. Pardus, 551 U.S. 89, 94
(2007) (citing Estelle v. Gamble, 429 U.S. 97, 106 (1976)).

1This Motion was never filed as a separate docket entry and only appears in the record as
an attachment to the Petition.
2

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 3 of 13 PAGEID #: 1374

B. Guilty Plea
Petitioner makes a number of arguments related to his guilty plea.

The

Magistrate Judge explained that on appeal in the state court proceedings, Petitioner had
already claimed that his plea was not made knowingly, intelligently, and voluntarily. As
part of the appeal of his post-conviction petition, the First District Court of Appeals
concluded that there was no support for Petitioner’s claim that his guilty plea was the
unknowing, involuntary, or unintelligent product of his trial counsel's ineffectiveness, the
trial judge's predisposition against him, prosecutorial misconduct, or any medication that
he was taking. The Magistrate Judge found that this conclusion was not based on an
unreasonable determination of the facts based on the evidence presented.
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C. §
2254 only permits habeas relief if the state court judgment “resulted in a decision that
was contrary to, or involved an unreasonable application of, clearly established federal
law, as determined by the Supreme Court of the United States” or “resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d). Clearly established
federal law “refers to the holdings, as opposed to the dicta, of [the Supreme Court's]
decisions as of the time of the relevant state-court decision.” Williams v. Taylor, 529 U.S.
362, 412, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000).
In his Objections, Petitioner argues that there is evidence that he overdosed on
medications on two occasions which demonstrates that his guilty plea was not made
knowingly, intelligently, and voluntarily.
3

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 4 of 13 PAGEID #: 1375

The Magistrate Judge addressed the first overdose, which occurred on July 20
2013.

Petitioner was found unconscious in the chapel of Mt. Airy Hospital.

Next to

Petitioner was a digital recorder which contained a lengthy confession to his brother’s
murder.

The Magistrate Judge noted that Petitioner did not plead guilty until five months

later in December of 2013.

As to the second overdose, it appears that Petitioner is

referring to an overdose on the morning of his arraignment.
1354).

(Doc. 31-1, PAGEID #

However, that arraignment took place on July 22, 2013.

(Id.) Therefore, the

same rationale applies to the second overdose as applies to the first overdose. As the
Magistrate Judge explained, Petitioner’s conviction was not based upon the confessions
which took place before or after his overdose, but was based upon his statements on the
record during his plea colloquy on December 10, 2013.

As the Magistrate Judge

pointed out, Petitioner specifically stated that he was not under the influence of drugs and
alcohol when he entered his plea.

(Doc #: 13-2, PAGEID # 1088).2

Therefore,

Petitioner’s own statements in the transcript show that he knowingly and voluntarily
chose to plead guilty.

A plea-proceeding transcript which suggests that a plea was

made voluntarily and knowingly creates a “heavy burden” for a petitioner seeking to
overturn his plea.

Garcia v. Johnson, 991 F.2d 324, 326-28 (6th Cir. 1993).

has not met that burden here.

Petitioner

Accordingly, even if Petitioner could have shown that his

confessions were made while he was under the influence of drugs, and were therefore
constitutionally inadmissible, Petitioner nevertheless cannot prevail on his habeas claim
since the record established that his guilty plea was in fact voluntary. Accord Reed v.
2The Magistrate Judge stated that Petitioner’s statements were sworn. (Doc. 29,
PAGEID# 1293). However, there is nothing in the record showing that Petitioner was sworn in
during the plea hearing.
4

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 5 of 13 PAGEID #: 1376

Henderson, 385 F.2d 995, 997 (6th Cir. 1967).
Similarly, while Petitioner argues that his guilty plea was coerced by his attorneys
with the threat of the death penalty, a solemn plea of guilty presents a "formidable barrier"
to a subsequent claim to the contrary.
1621, 52 L.Ed.2d 136 (1977).

Blackledge v. Allison, 431 U.S. 63, 73, 97 S.Ct.

Petitioner explains that he never received discovery or

Brady material from the prosecutors, so he had to trust the advice of his attorneys.3
However, the Sixth Circuit has held that “a prosecutor's failure to disclose arguably
exculpatory Brady material prior to plea bargaining did not render the defendant's guilty
plea involuntary where a factual basis for the plea was established at the plea
proceeding.”

Robertson v. Lucas, 753 F.3d 606, 621 (6th Cir. 2014) (citing Campbell v.

Marshall, 769 F.2d 314, 318, 323-24 (6th Cir.1985)).
Next, Petitioner claims that his plea was invalid because Ohio Rule of Criminal
Procedure 11 requires that during the plea colloquy he plead guilty separately to
aggravated murder and the firearm specification.

However, as the Magistrate Judge

explained, the First District found that a separate plea to the gun specification was not
necessary under Rule 11.

(See Doc. 13, PAGEID# 552).4 Citing State v. White, 2002

Petitioner also accuses Judge Nade!—who presided over his criminal proceedings—of
judicial bias and committing fraud upon the court by withholding or encouraging the withholding
of this discovery or Brady material from him. Petitioner has not provided anything more than this
unsupported allegation to support his claim of bias. While Petitioner does argue that Judge
Nadel's denial of his Motion for Delayed Appeal demonstrates bias, the Magistrate Judge
explained that Petitioner was ultimately granted his delayed appeal by an appropriate judge.
Petitioner also argued in his objections that his guilty plea was not valid because the plea
was not accepted by a three-judge panel. As the Magistrate Judge explained in his
Supplemental R&R, Petitioner’s argument relies on State v. Parker, 95 Ohio St. 3d 524, 525, 769
N.E.2d 846, 848 (Ohio 2002), in which the Ohio Supreme Court held a “defendant charged with a
crime punishable by death who has waived his right to trial by jury must... have his case heard
5

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 6 of 13 PAGEID #: 1377

WL 31169182 (Ohio Ct. App. 2002), the First District explained that Ohio Criminal Rule
11(C)(3) only requires a defendant to enter a separate plea to a death-penalty
specification.

(Id.)

This Court must respect this determination unless there was a

violation of due process.

Riggins v. McMackin, 935 F.2d 790, 795 (6th Cir. 1991).

Therefore, the sole inquiry is whether Petitioner’s guilty plea comported with the
protections of due process,

id.

At the plea hearing, the judge reviewed the Entry Withdrawing Plea of Not Guilty
and Entering Plea of Guilty, which was signed by Petitioner.

(Doc. 13-2, PAGEID#

1087). The judge also had the following exchange with Petitioner:
THE COURT: And you understand that by pleading guilty, you make a
complete admission of your guilt.
Do you understand that? The only
thing left to do will be to sentence you, which could be as I just indicated.
You understand that?
THE DEFENDANT:

Yes, sir.

THE COURT: And by pleading guilty, you waive the following rights. By
pleading guilty, you waive the following rights: Again, you waive your
right to a jury trial.
You waive your right to confront witnesses against
you. You waive your right to have subpoenaed witnesses to testify in your
favor. And you waive your right to require the state to prove your guilt
beyond a reasonable doubt at a trial in which you cannot be compelled to
testify against yourself.
Do you understand the rights you waive, or give up, by pleading guilty?
THE DEFENDANT:

Yes, sir.

(Doc. 13-2, PAGEID# 1087-88).

Finally, the judge reviewed the potential penalties for

and decided by a three-judge panel even if the state agrees that it will not seek the death
penalty." As the Magistrate Judge also explained, a three-judge panel is not required where the
defendant is not charged with a death penalty specification. See State v. Butler, 2018 WL
4232369, *3 (Ohio Ct. App. 2018). Here, Petitioner was charged with firearm specifications, not
a death penalty specification.
6

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 7 of 13 PAGEID #: 1378

both the aggravated murder and the gun specification. (Doc. 13-2, PAGEID# 1086).
This Court concludes that the plea colloquy supports the state court’s determination that
Petitioner’s plea was knowing and voluntary. Therefore, the Court finds no error in the
Magistrate Judge’s conclusion that Petitioner’s First Ground for Relief is without merit.
Accordingly, Petitioner’s Objections on this point are OVERRULED.
C. Ineffective assistance of appellate counsel
Claims of ineffective assistance of appellate counsel are subject to the two-prong
Strickland test. Evans v. Hudson, 575 F.3d 560, 564 (6th Cir. 2009). First, Petitioner
must demonstrate that, considering all of the circumstances, counsel’s performance was
so deficient that the attorney was not functioning as the “counsel” guaranteed by the
Sixth Amendment.

Strickland v. Washington, 466 U.S. 668, 687 (1984).

Petitioner must show that such performance prejudiced his defense. Id.

Second
Counsel's

failure to raise an issue on appeal could only be ineffective assistance if there is a
reasonable probability that inclusion of the issue would have changed the result of the
appeal. McFarland v. Yukins, 356 F.3d 688, 699 (6th Cir. 2004) (citing Greer v. Mitchell,
264 F.3d 663, 676 (6th Cir. 2001).
The Magistrate Judge noted that in deciding Petitioner’s ineffective assistance of
appellate counsel claim, the First District found that by his knowing, voluntary and
intelligent

guilty

plea,

Petitioner

waived

his

proposed

actual-innocence,

diminished-capacity, and weight-and-sufficiency claims, which he maintains his
appellate counsel should have raised on appeal. As a result, the First District concluded
that his appellate counsel cannot be said to have been ineffective in failing to raise the
7

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 8 of 13 PAGEID #: 1379

claims on appeal.

The Magistrate Judge determined that this conclusion was not an

objectively unreasonable application of clearly established Supreme Court precedent.
The Court finds no error in the Magistrate Judge’s conclusion that Petitioner’s Second
Ground for Relief is without merit.
D. Cumulative error
As the Magistrate Judge explained, under the Antiterrorism and Effective Death
Penalty Act, a claim of cumulative error is not cognizable in habeas corpus.

See

Williams v. Anderson, 460 F.3d 789, 816 (6th Cir. 2006) (“[T]he law of this Circuit is that
cumulative error claims are not cognizable on habeas because the Supreme Court has
not spoken on this issue.”); Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005) (“[W]e
have held that, post-AEDPA, not even constitutional errors that would not individually
support habeas relief can be cumulated to support habeas relief.”). Therefore, the Court
finds no error in the Magistrate Judge’s conclusion that Third Ground for Relief is without
merit.

Accordingly, Petitioner’s Objections on this point are OVERRULED.
E. Actual innocence
In his Objections, Petitioner claims that the Magistrate Judge attempts to preclude

a letter from Linda Freeman dated July 22, 2013 which shows that he is actually
innocent.

However, as the Magistrate Judge explained, the letter is unsworn and was

not made a part of the state court record.5 The Magistrate Judge concluded that this
Court is precluded from considering the letter by Cullen v. Pinholster, 563 U.S. 170,182,
131 S.Ct. 1388, 179 L.Ed.2d 557 (2011).
5While the Magistrate Judge stated that this letter was already in existence months before
Petitioner waived his right to present evidence and plead guilty on December 10, 2013, it appears
that the letter was not sent to Petitioner until June 23, 2015. (Doc. 31-1, PAGEID# 1361).
8

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 9 of 13 PAGEID #: 1380

In Pinholster, the Supreme Court held that “review under § 2254(d)(1) is limited to
the record that was before the state court that adjudicated the claim on the merits.” 131
S.Ct. at 1398.

Thus, “evidence introduced in federal court has no bearing on §

2254(d)(1) review.

If a claim has been adjudicated on the merits by a state court, a

federal habeas petitioner must overcome the limitation of § 2254(d)(1) on the record that
was before that state court." id. at 1400.
As this Court has recognized, district courts which have addressed the issue have
unanimously held that Pinholster’s limitation on new evidence does not apply to claims of
actual innocence when it is used to excuse a procedural default of another claim.
Johnson v. Warden, Chillicothe Corn Inst., No. 2:16-CV-985, 2018 WL 9669761, at *5
(S.D. Ohio June 26, 2018), objections overruled, No. 2:16-CV-985, 2018 WL 9662539
(S.D. Ohio Sept. 20, 2018) (citing Vinson v. Mackie, Case No. 14-cv-14542, 2016 WL
6595021, at *1 (E.D. Mich. Nov. 8, 2016) (collecting cases)).

However, as the

Magistrate Judge explained, in this case, Petitioner has not presented this type of
“gateway” innocence claim. Instead, Petitioner brings a freestanding innocence claim.
As the Sixth Circuit has noted, the Supreme Court has yet to determine whether a
federal habeas court may entertain a freestanding innocence claim. Stojetz v. Ishee,
892 F.3d 175, 208 (6th Cir. 2018), cert, denied, 139 S. Ct. 1262 (2019) (citing House v.
Bell, 547 U.S. 518, 554-55 (2006)). However, the Sixth Circuit explained that if such a
claim were cognizable, “the showing required for such a hypothetical claim would be
greater than that required fora gateway-innocence claim.” Id. (citing House, 547 U.S. at
555). Accordingly, if a petitioner cannot “meet the standard for a gateway-innocence
9

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 10 of 13 PAGEID #: 1381

claim—viz., establishing that ‘it is more likely than not that no reasonable juror would
have found [him] guilty beyond a reasonable doubt[,]”’—he cannot meet the higher
burden which would apply to a free-standing claim. Id. (quoting Schlup v. Delo, 513
U.S. 298, 327, 115 S.Ct. 851, 130 L.Ed.2d 808 (1995)).
Here, Petitioner cannot meet the lower standard for a gateway-innocence claim
based on the letter from Linda Freeman dated July 22, 2013. In the letter, Freeman
states that she and her husband were parked outside Larry Littlepage’s house on the
night of his murder.

(Doc. 31-1, PAGEID# 1363).

Freeman writes that she heard

arguing and three “pops” which sounded like gun shots. (Id.) Freeman states that she
and her husband observed a woman and man come in and out of the house several
times; and then leave and return to the house in a silver car. (Id.) Freeman also states
that she observed the man and woman load things into the silver car and throw things
into the woods next to the house. (Id.) Freeman explained that she did not come
forward with this information sooner because her husband was concerned they would be
retaliated against. (Id.) However, there is nothing in the letter which would constitute
“substantial evidence pointing to a different suspect.”

House, 547 U.S. at 554.

Freeman merely saw other people at Larry Littlepage’s house on the day he died. This
evidence does not exclude the possibility that Petitioner was also at the house at some
point. The Court concludes that the evidence does not demonstrate that “it is more
likely than not that no reasonable juror would have found [the] petitioner guilty beyond a
reasonable doubt."
Therefore, the Court finds no error in the Magistrate Judge’s conclusion that even
10

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 11 of 13 PAGEID #: 1382

if such a claim were permissible, Petitioner has not established a claim of actual
innocence.

Accordingly, Petitioner’s Objections on this point are OVERRULED.
F. Stay and Abeyance

The Magistrate Judge noted that there was never a ruling on Petitioner’s Motion
for Stay and Abeyance, which was filed as an attachment to his Petition (Doc. 1-3).

The

Magistrate Judge explained that Petitioner’s request for stay and abeyance would need
to be premised on a finding by this Court that any claim was truly unexhausted.6
However, the Magistrate Judge found that Petitioner has not brought a claim which
cannot be decided due to lack of exhaustion.
In his Objections, Petitioner argues that there is no basis to deny his Motion for
Stay and Abeyance.

Petitioner maintains that there are documents which were a part of

the state court record which should have been made a part of the record in this case, so
therefore there are claims which have not been exhausted.

This issue regarding the

completeness of the record was addressed by the Magistrate Judge.
PAGEID# 1189).

(See Doc. 20,

However, the issue here is the application of the exhaustion doctrine.

“Before a federal court may grant habeas relief to a state prisoner, the prisoner must
exhaust his remedies in state court.”
S.Ct. 1728,144 L.Ed.2d 1 (1999).

O'Sullivan v. Boerckel, 526 U.S. 838, 842, 119

“In other words, the state prisoner must give the state

courts an opportunity to act on his claims before he presents those claims to a federal
court in a habeas petition.”

Id.

As the Magistrate Judge explained, there is no dispute

6Under Rhines v. Weber, 544 U.S. 269 (2005), a petition should be stayed and held in
abeyance only where (1) the petitioner’s unexhausted claims are not plainly meritless, and (2)
there was good cause for failing to present the claims to the state court before petitioning for
habeas corpus relief in this Court.

11

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 12 of 13 PAGEID #: 1383

that Petitioner’s claims have been exhausted; and therefore, a stay of his Petition is
unnecessary. Therefore, the Court finds no error in the Magistrate Judge’s denial of
Petitioner’s Motion for Stay and Abeyance as moot.
G. Certificate of appealability
Petitioner argues that a certificate of appealability should issue because in
reviewing his in forma pauperis motion, the Magistrate Judge determined the Petition
was not too frivolous to order an answer.
A certificate of appealability may issue “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
When a court denies a habeas claim on the merits, the substantial showing threshold is
met if the petitioner demonstrates that reasonable jurists would find the court’s
assessment of the claim debatable or wrong. See Slack v. McDaniel, 529 U.S. 473,
484-85 (2000).

“A petitioner satisfies this standard by demonstrating that jurists of

reason could disagree with the district court's resolution of his constitutional claims or
that jurists could conclude the issues presented are adequate to deserve encouragement
to proceed further.” Miller-Ei v. Cockrell, 537 U.S. 322, 327,123 S. Ct. 1029,1034,154
L. Ed. 2d 931 (2003).
As the Magistrate Judge explains, the question of whether a petition is sufficient to
warrant an answer and the question whether, after the case has been decided, an appeal
should be permitted to proceed in forma pauperis are different questions. The Court
finds no error in the Magistrate Judge’s conclusion that Petitioner should be denied a
certificate of appealability.
12

Case: l:16-cv-01005-MRB-MRM Doc #: 34 Filed: 07/13/20 Page: 13 of 13 PAG El D #: 1384

Accordingly, it is hereby ORDERED that:
1. Petitioner’s objections are OVERRULED and the Magistrate Judge’s December
20, 2017 R&R (Doc. 24) and Supplemental R&R (Doc. 29) are ADOPTED;
2. The Petition is DISMISSED with PREJUDICE;
3. Petitioner’s Objections to the February 9,2018 Order Denying Motion for Stay and
Abeyance (Doc. 31) are OVERRULED;
4. Because reasonable jurists would not disagree with this conclusion, Petitioner is
denied a certificate of appealability; and
5. With respect to any application by Petitioner to proceed on appeal in forma
pauperis, the Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that an appeal of
this Order would not be taken in “good faith,” and, therefore, Petitioner is DENIED
leave to appeal in forma pauperis upon a showing of financial necessity. See
Fed. R. App. P. 24(a); Kincade v. Sparkman, 117 F.3d 949, 952 (6th Cir. 1997).
IT IS SO ORDERED.
/s/Michael R. Barrett
Michael R. Barrett
United States District Judge

13

atatit" "
. ENTERED "
JUN 1 0 2014
y

COURT OF‘COMMON FLEAS
HAMELTON-CpONTY, OHIO . ..

CASENO. Pi (3CP f-/-3 *%3

ORDER

-ys-

r«

H
•*.
e

.
l

*2V
• ;

NqrbsrtA- NadeJ, Judge

Date

APPENDIX - D

THE STATE OF OHIO, HAMILTON COUNTY
date: 01/13/2014
code: GJEif
judge: 109

COURTOFCOMM ON PLEAS

—!____ £
Ju jgc:J^ORBERT A NADE
/
NC ; B 1304393
STATE OF OHIO

• vs.

DANIEL LITTLEPAGE

Jl DGMENT ENTRY: SENTENCEINCARCERATION

TO

ffTHF DEFERS OR °™ER AUTHOVY AS DESIGNATED BY LAW.
S °R REFUSES T P SUBMIT TO THE REQUIRED
SUBJECT TO a tooi^ECTION PROCEDLR^’ THE DEFENDANT WILL BE
SUBJECT TO ARREST AND PUNISHMENT EflOR VIOLATING THIS
CONDITION OF PROBATION, COMMUNITY CONTROL PAROLE,
TRANSITIONAL CONTROL OR POST-RELE ASE CONTROL.
AS PART OF THE SENTENCE IN THIS CASE! , the defendant shall be
SUPERVISED BY THE ADULT PAROLE AUTf HORITY AFTER DEFENDANT
LEAVES PRISON, WHICH IS REFERRED TO AS POST-RELEASE CONTROL,
FOR FIVE ( 5 ) YEARS.
IF THE DEFENDANT VIOLATES POST-RELEASE CONTROL SUPERVISION
OR ANY CONDITION THEREOF, THE ADUlIt PAROLE AUTHORITY MAY
IMPOSE A PRISON TERM, AS PART OF THE SENTENCE, OF UP TO
NINE { 9) MONTHS, WITH A MAXIMUM FOR REPEATED VIOLATIONS OF
FIFTY PERCENT ( 50% ) OF THE STATED Pi'jUSONTERM. IF THE
DEFENDANT COMMITS A NEW FELONY W. IILE SUBJECT TO POSTRELEASE CONTROL, THE DEFENDANT MA V BE SENT TO PRISON FOR
THE REMAINING POST-RELEASE CONTRO L PERIOD OR TWELVE ( 12 )
MONTHS, WHICHEVER IS GREATER. THIS PRISON TERM SHALL BE
SERVED
TO ANY PRISON term imposed for the
™w w. CONSECUTIVELY
^
NEW FELONY OF WHICH THE DEFENDANT IS CONVICTED.

Page 2

CMSG306N
APPENDIX
30

E

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 1 of 12 PAGEID #: 1(J80

1

COURT OF COMMON PLEAS
HAMILTON COUNTY, OHIO

2
3
4

STATE OF OHIO,

)

) APPEAL NO: C-1400574
5

Pi ai nti f f,

)

) CASE NO: B-1304393
6

vs .

)

) VOLUME 1 OF 2
7
8

DANIEL LITTLEPAGE,
Defendant.

)
)
)

9
10

COMPLETE TRANSCRIPT OF PROCEEDINGS

11

PLEA

12
13

APPEARANCES:

14

DAVID L. PREM, JR., ESQ.,
JOSHUA A. BERKOWITZ, ESQ.,
on behalf of the State;

15
16
17

DANIEL F. BURKE, JR.
ESQ. ,
FRANK E. OSBORNE, ESQ.,
on behalf of the Defendant.

18
19
20

BE IT REMEMBERED that upon the hearing

21

of this cause, on December 10th, 2013, before

22

the Honorable Norbert A. Nadel

23

said court, the following proceedings were had:

24
25

APPENDIX - F

a judge of the

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 2 of 12 PAG El D #: 1^81
1

THE COURT:

Good morning.

2

Today is the 10th.

3

Mr.

Littlepage, you've signed

4

this form indicating you're going to

5

plead guilty here to Count 2, which is a

6

charge of aggravated murder, but also a

7

three-year gun specification.

You've received a copy of the

8
9

,

And before I

indictment against you.

10

ask any more questions, I'm going to ask

11

the prosecutor to read the substance of

12

the charge briefly and the underlying

13

facts.

14

MR.

15

This occurred on or about

16

July 18th of 2013, in Hamilton County,

17

Ohio.

18

BERKOWITZ:

Thank you,

Judge.

The Defendant purposely caused

19

the death of his brother, Larry

20

Littlepage.

21

calculation and design,

22

at the victim's home on Pippin Road in

23

Colerain Township.

24

caused by gunshot wounds.

25

wounds; one to the abdomen, and twice to

He did so with prior
This occurred

The murder was
Three gunshot

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 3 of 12 PAGEID #: 1(^2

1

the victim's head at close range.

2

Again, that was at the victim's

3

residence.

4

The murder was discovered a day

5

later on the afternoon of July 19th when

6

the victim's coworkers went to his house

7

trying to determine why he missed work

8

on that day.

9

garage suffering from the wounds caused

10
11

They found his body in his

by those three gunshots.
On the following day, on

12

July 20th, text messages from the

13

Defendant to other family members

14

confessed his involvement in the murder;

15

the fact that he had planned it and, in

16

fact, had committed the murder.

17

Those relatives contacted

18

Colerain Township Police, who initiated

19

a search for the Defendant.

20

located at the Mercy Mt. Airy Hospital

21

in the chapel

22

sleeping medication in an apparent

23

suicide attempt,

24

aside from a loaded firearm, was a

25

digital recorder in which he had

He was

having overdosed on

with the Defendant,

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 4 of 12 PAG El D #: 1Q£3

1

recorded a lengthy confession to the

2

crime.

3

saved by medical personnel at the

4

hospital.

5

He was, obviously, able to be

Upon regaining consciousness,

6

detectives with Colerain Township

7

advised the Defendant of his rights and

8

interviewed him at the hospital where he

9

again admitted to shooting his brother,

10

planning his death over a period of

11

time, and causing his death.

12

Upon his release from the

13

hospital, he was again interviewed by

14

police, again advised of his rights, and

15

again he confessed to planning and

16

murdering his brother.

17

The Defendant claimed that his

18

motive in killing his brother and

19

planning his death was over a dispute

20

between family members following the

21

death of their father in 2010.

22

indicated that Larry Littlepage was not

23

the only family member that he intended

24

to kill, but he would be the first.

25

THE COURT:

Okay.

He

Thank you,

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 5 of 12 PAGEID #: iqp4
1

Mr. Berkowitz.

2

Mr. Littlejohn [sic], you*re

3

making this plea on your own free will;

4

is that correct?

5

THE DEFENDANT:

6

THE COURT:

Yes.

No one has made any

7

threats, promises, or anything like

8

that, in order to get you to plea, have

9

they?

10

THE DEFENDANT:

11

THE

court:

NO, Sir.

I will advise you of

12

the penalties now, and I can sentence

13

you as follows*.

14

number one, life imprisonment without

15

parole; I can sentence you to life

16

imprisonment with parole eligibility

17

after serving 20 years of imprisonment;

18

I can sentence you also to life

19

imprisonment with parole eligibility

20

after serving 24 years of imprisonment;

21

or I can sentence you to life

22

imprisonment with parole eligibility

23

after serving 34 years of imprisonment.

24
25

I can sentence you,

And also, there is a monetary
fine of up to $25,000.

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 6 of 12 PAG El D #: l(jp5

1

In addition, there's a gun

2

specification, which means I must

3

sentence to you three years of actual

4

incarceration to be served consecutive

5

with and prior to the sentence on the

6

aggravated murder.
Do you understand the possible

7
8

penalties?
THE DEFENDANT:

9

(Mr. Prem confers with the

10
11
12

Yes, Sir.

Court.)
the

COURT:

The prosecutor has

13

corrected me, so let me repeat the

14

penalties again.

15

follows:

16

imprisonment without parole.

17

sentence you to life imprisonment with

18

parole eligibility after serving 20 full

19

years of imprisonment.

20

you to life imprisonment with parole

21

eligibility after serving 25 full years

22

of imprisonment, or can I sentence you

23

to life imprisonment with parole

24

eligibility after serving 30 full years

25

of imprisonment.

I can sentence you as

Life imprisonment, life
I can

I can sentence

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 7 of 12 PAGEID #: 1^86

1

MR.

PREM:

2

THE

court:

Yes, sir.

And again, as I told

3

you, there's a $25,000 -

4

to $25,000.

5

a fine of up

in addition, I will tell you

6

again, I just told you, there's a gun

7

specification, which means I must

8

sentence you to three years actual

9

incarceration to be served consecutive

10

with and prior to the sentence for

11

aggravated murder.

12
13

Do you understand the possible
penalties?

14

THE DEFENDANT:

15

THE COURT:

16

THE DEFENDANT:

17

THE COURT:

18
19
20
21
22

How old are you?
47.

47.

How far did you

go in school?
THE DEFENDANT:

All the way,

through 12th grade.
THE COURT:

Okay.

So you can

read; is that correct?

23

THE DEFENDANT:

24

THE COURT:

25

Yes, Sir.

now,

Yes.

this form that

says Entry withdrawing Plea of Not

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 8 of 12 PAGEID #: l<j£7

1

Guilty and Entering Plea of Guilty, this

2

form basically explains the same rights

3

I'm just explaining.

4

this to you.

5

i1.

6

ask if you've seen this before.

It has your signature on

I'm going to show this to you and

7

THE DEFENDANT:

8

THE COURT:

9
10

I'm going to show

Okay.

You read it, you

understood it, you signed it of your own
free will,

is that correct?

11

THE DEFENDANT:

12

THE COURT:

Yes, Sir.

And you understand

13

that by pleading guilty, you make a

14

complete admission of your guilt.

15

you understand that?

16

left to do will be to sentence you,

17

which could be as I just indicated.

18

understand that?

19

THE DEFENDANT:

20

THE

court:

Do

The only thing

You

Yes, Sir.

And by pleading

21

guilty, you waive the following rights.

22

By pleading guilty, you waive the

23

following rights:

24

right to a jury trial.

25

right to confront witnesses against you.

Again, you waive your:
You waive your

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 9 of 12 PAGEID #: 1(^8

1

You waive your right to have subpoenaed

2

witnesses to testify in your favor,

3

you waive your right to require the

4

State to prove your guilt beyond a

5

reasonable doubt at a trial in which you

6

cannot be compelled to testify against

7

you rself.
Do you understand the rights you

8
9

And

waive, or give up, by pleading guilty?

10

THE DEFENDANT:

11

THE COURT:

Yes, sir.

You're not under the

12

influence of drugs or alcohol now, are

13

you?

14

THE DEFENDANT:

15

THE COURT:

16
17

Okay.

NO.

You 1 re saying,

■I Kl **

NO .

H

Good.
Okay, X accept your plea to
we'll order a

18

aggravated murder,

19

presentence investigation report, victim

20

impact statements, and we'll pick a date

21

for sentencing.

22
23

Mr. Prem or Mr. Berkowitz, did I
leave anything out?

24

MR. PREM:

Judge, I do not

25

believe you did.

I think you hit

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 10 of 12 PAGEID #:j^89

1

everything.

2

THE COURT:

Any other questions?

3

MR. BURKE:

Judge, thank you.

4

THE COURT:

Okay,

5

date.

You indicated
MR. PREM:

6

Let's pick a

There are family

7

members, Judge, that are present, but

8

we're told that there were other family

9

members who wanted to be here.

They

10

weren't here today because we weren't

11

100 percent sure if it was actually

12

going to be a plea.

13

ask the Court to consider is maybe

14

setting it on Monday, if that's

15

convenient, because
THE COURT:

16
17

Monday.

Monday of when?

MR. PREM:

19

13th of January.
THE COURT:

Like the 6th or the

Let me look here.

21

January.

22

You're saying Monday?

23

you * re saying?

24
25

Some

is that what you're saying?

18

20

And what I would

Of

The 6th is not good here.

MR. PREM:

Is that what

With the people that

are traveling, Judge, we were just going

Case: l:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 11 of 12 PAGEID #: JJ90

1

to ask you to consider that because they

2

can spend the night with family members.
THE COURT:

3
4

how

about January 13th at 9:15?
MR.

5
6

That's fine.

Honor.

PREM:

That's perfect, Your

Thank you.

7

THE COURT:

8

(Whereupon, the proceedings

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

concluded.)

Okay.

1/13/14, 9:15.

Case: i:16-cv-01005-MRB-SKB Doc #: 13-2 Filed: 06/23/17 Page: 12 of 12 PAGEID #:^.§91

1

CERTIFICATE

2

I, COLLEEN R. O'CONNELL, the

3

undersigned, a Registered Diplomate Reporter for

4

the Hamilton County Court of Common Pleas, do

5

hereby certify that at the same time and place

6

stated herein, I recorded in stenotype and

7

thereafter transcribed the within 11 pages and

8

that the foregoing Transcript of Proceedings is

9

a true, complete, and accurate transcript of my

10
11
12

said stenotype notes.
IN WITNESS WHEREOF, I hereunto set my
hand this 21st day of November, 2014.

13
14
15
16
17
18
19
20
21
22
23
24
25

(jM-WvQ P\.
Colleen R. O'Connell
Registered Diplomate Reporter
Court of Common Pleas
Hamilton county, Ohio

13
1

COURT OF COMMON PLEAS

2

HAMILTON COUNTY, OHIO

3
4

STATE OF OHIO,
plaintiff,

5

Case No. B-1304393
C-1400574

6

vs.

7

DANIEL LITTLEPAGE,

8

Defendant.

: VOL. II of II

9
TRANSCRIPT OF PROCEEDINGS

10
11
12
13
14
15

APPEARANCES:
DAVID PREM, ESQ.,
On behalf of the State,
DANIEL BURKE, ESQ,
FRANK OSBORNE, ESQ.,
On behalf of Defendant.

16
17

BE IT REMEMBERED that upon the

18

hearing of this sentencing on Monday, January

19

13, 2014 before the Honorable Norbert A. Nadel,

20

a said judge of the said Court of Common Pleas,

21

the following proceedings were had.

22
23
24
25
APPENDIX - G

14
1
2
3
4
5
6
7
8
9
10
11

MORNING SESSION, Monday, January IS, 2014
State of Ohio versus

THE COURT:
Daniel Littlepage.

David Prem on behalf of

MR. PREM:
the State.
MR. BURKE:

Daniel Burke for the

defendant.
MR. OSBORNE:

Frank Osborne for the

defendant.
THE COURT:

All right.

Folks, this

is state of Ohio versus Daniel Littlejohn.

12

MR. BURKE:

Littlepage.

13

THE COURT:

Littlepage, excuse me.

Daniel Littlepage.

And on

14

You 1 re right.

15

December the 10th the defendant pled guilty

16

to Count 2 of aggravated murder with a

17

Specification 2, a three-year gun

18

specification.

19

we requested a presentence
we requested

20

investigation report,

21

victim impact statements and we're here

22

for sentencing.

23

I will ask you, do you want to say

24

anything and we'll start off with you,

25

counsel?

15
1
2
3

Either counsel want to say anything
before I pass sentence?
MR. BURKE:

Judge, just briefly.

On

4

Mr. Littlepage's behalf we do have the

5

presentence report and the Court read the

6

presentence investigation report.

7

THE

8

MR. BURKE:

9
10
11
12

court:

Right.
I won't go through that,

we find the presentence report to be in
order and correct.
Just to remind the Court also, we
twice had NGRI.

13

THE COURT:

Right.

14

MR. BURKE:

Even though it was not

15

found under the guidelines of

ngri,

16

the situation at the last doctor, the

17

psychiatrist talked about was all the

18

medications and all the items that he was

19

on and the whole situation.

i

think

20

the court:

Right.

21

MR.

We still believe under

burke:

22

this situation that he would not have done

23

what he had done with some of the

24

medications, but the doctor did not find

25

that on our behalf so we will just submit

16
1
2

that.
the

COURT:

certainly.

3

Mr . Littlepage, do you want to tell me

4

anything before I pass sentence?

5
6

THE DEFENDANT:
what I have done.

7

THE COURT:

8

THE DEFENDANT:

9
10
11
12

13

what?

THE COURT:

Why would you kill your

brother?
THE DEFENDANT:

Just a lot of stuff

going on, sir.
THE COURT:

15

THE DEFENDANT:

17

I am very sorry for

what I have done.

14

16

I am very sorry for

What?
Just a lot of stuff

going on.
THE COURT:

Well, there was obviously

18

a fight over family money and you had taken

19

care of your dad.

20

THE DEFENDANT:

21

THE COURT:

Right.

They were accusing you of

22

stealing the money and then they sued you.

23

What happened to that lawsuit?

24

25

THE DEFENDANT:

I had my attorney

James Sullivan go ahead and take that

17
1

money , whatever they claimed it, off the

2

value of the house.
the court:

3
4

And then you paid some

money?

5

THE DEFENDANT:

6

THE COURT:

Yeah.
And then your

okay,

7

father and even, of course, your siblings

8

were very angry, weren't they?
THE DEFENDANT:

9

THE COURT:

10

Always have been.

And I can understand

SO this was this fight over money.

11

that.

12

How old are you roughly now?

13

THE DEFENDANT:

14

THE COURT:

47.

You're 47.

So really and

15

then, of course, you were angry and went

16

over there,

17

brother's habits and all that.

18

your brother?

You were watching your

19

THE DEFENDANT:

20

the court:

21
22

53.

How old was

53.
And that was your

blood brother, wasn't it?
And it wasn't adoption or half
How many

23

brother, that's your brother,

24

brothers or sisters do you have?

25

THE DEFENDANT:

I have one

18
1

stepbrother, I have another blood brother

2

and I have four sisters.
THE COURT:

3
4

And I think one of the

sisters lives in Oklahoma, is that right?

5

THE DEFENDANT:

6

the court:

7

10

And you had been -- yeah,

yeah .
THE DEFENDANT:

8
9

Yes, sir.

I wanted to and I

stopped, Your Honor, to ask them why did
they done that to me. Get in my mail, take

12

trouble and after three
my - - get me this
years and my dad had been gone and somebody

13

did give me an answer so I stopped it.

14

asked Larry because I saw him outside

15

and

11

16

THE COURT:

Okay.

I

Anything else you

18

sentence?
want to tell me before I pass
YOU obviously pled guilty here and

19

you 1 re obviously taking responsibility

20

for that.

17

21
22
23

THE DEFENDANT:

I am just sorry it

ever happened.
the court:

Yeah.

wel1, you have
At least the other

24

taken responsibi1ity.

25

family members don't go -- don't have to go

I c‘j L i‘<u- 6 —

1
2

i

through the business of a trial.

19
At least

today there will be some finality.
Your Honor, there is a

MR. PREM:

3
4

family member representative named Charlene

5

who would like address the Court.
THE COURT:

6
7

me what you want to tell me.

10
11

defendant's sisters and the other ladies
would be like to be there just to support
them.
THE COURT:

12
13

Dust tell me.

you.

15

Dust tell me.

17
18

Move that up a little

closer and hopefully I will be able to hear

14

16

These are -- victim's and

MR. PREM:

8
9

Stand over here or tell

Don't read anything.

That would be a lot better,

the witness:

in 2010 my father told

me if he pulled anything off to go after
him and I promised him I would.

And there

20

He was charged
was no lawsuit against him.
by the state of Ohio for misuse of a power

21

of attorney for his own financial gai n.

19

22

Because he stole a 91-year-old

23

man's money and turned around and stole

24

my oldest brother's inheritance.

25

there was no lawsuit and Larry did

so

20

nothing to him.

2

he stopped and he prayed.

3

And

Absolutely nothing.

1

He ambushed and he murdered my
And then he shoots him in the

4

brother.

5

stomach to get his attention,

6

get his attention today by sentencing him

7

to life without parole.

8

THE COURT:

9

THE WITNESS:

10

I want to

Okay.
Because what he did was

totally uncalled for.

11

the court:

12

THE WITNESS:

I agree with you.
A murderer.

I tried to

13

tell the authorities in 2010 and 'll he was

14

a murderer.

15

did nothing about it.

16

He murdered my father.

Nobody

I also tried to get a restraining

17

order against him for Gary, Larry and

18

myself and everybody said oh, he has got

19

to do something first,

20

today because he murdered Larry and I

21

want justice.

22
23

the court:

Wei 1, here we are

we 11 try to give you the

best justice we can.

24

THE WITNESS:

25

THE COURT:

Thank you

Your Honor.

Thank you, folks.

21
Be careful, 1adies.

1

MR. PREM:

2

THE COURT:

3

Anybody else want to say anything

4
5

Don t fall over anything.

before I pass sentence?
MR. PREM:

Judge, just on behalf of

I did speak to the entire family

6

the State

7

about the options that are available to the

8

Court with respect to sentencing and I

9

think I have explained to them what you

10

have to take into consideration in

11

fashioning your sentence.
I think the Court hit the nail

12

You didn't say it

13

right on the head.

14

maybe this way, but this is not about

15
16

medicine as Mr. Burke put it. it* s
really about greed. A guy stealing

17

money.

18

THE COURT:

19

MR. PREM:

20
21
22

It's about money.
And he could make all the

excuses he wants for why he did this, but
He di d
it was a cold and calculated act.
admit to it. He did cooperate with the

24

police. He did plead guilty as charged,
but he obviously is a dangerous person and

25

we would ask you to take all that into

23

22

1
2

consideration.
the court:

okay.

Anything else that

3

anybody wants to tell me before I pass

4

sentence?

5

I do agree and we have done
there has been

6

reports, we have done -

7

two psychological reports at the request

8

of the defense counsel.

9

presentence reports and there has been

There has been

We have heard

10

victim impact statements,

11

from the defendant and basically this is

12

all about money.

13

And actually just looking at this

14

whole thing and hearing from everybody it

15

sort of the reminds me of one of those

16

horror movies involving a psychopathic

17

killer in a horror movie,

18

understand how anybody could kill their

19

brother.

20

I don 11

I really don't.

Here's a man with very little and

21

almost no criminal record and it's not

22

something that happened at the last

23

minute or as a result of something,

24

mean this is something that went on for a

25

while and built up in the defendant.

I

He

23
1

stabbed -- obviously from the reports you

2

stabbed him and you went over there with

3

a gun and really like one of those horror

4

movies.

5

horror movie involving a psychopathic

6

ki 11 er .

7

here.

Almost like an Alfred Hitchcock

That is basically what we have

8

But we will take into consideration

9

the fact that the defendant did admit his

10

guilt, didn't put the family members here

11

through a long drawn-out legal process

12

which would have just made things worse

13

than they are.

14

So the sentence of the Court will

15

be on count 2, the charge of aggravated

16

murder, the sentence of the court will be

17

life imprisonment with parole eligibility

18

after serving 20 years of imprisonment.

19

And on the specification, the court

20

sentences the defendant to three years of

21

actual incarceration to be served

22

consecutive with and prior to the

23

sentence on Count 2.

24
25

So that means you have got to do at
least 23 years and perhaps many, many

24
Because most of the time when you

1

more.

2

go before the parole board you will be in

3

your 70s.

4

will be in your 70s, so it's possible you

5

will spend the rest of your life in

6

prison.

7
8

You are 47 right now and you

Good luck to you.

Anything else that the State wants
to add?
There will be no appeal.

9

MR. BURKE:

10

we'll not appeal this.

11

THE COURT:

okay.

12

MR. BURKE:

we'll accept the

13
14

sentences as given.
THE COURT:

Okay,

At least the

15

family has some finality and some

16

resolution to this horrible thing,

17

luck to you.

18

MR. BURKE:

19

he has 175 days.

20

THE COURT:

21
22
23
24
25

Good

For the record, I believe

we will mark that 175

days credit time served.
(PROCEEDINGS CONCLUDED.)

f

l25

CERTIFICATE

1

the undersigned, an official

2

I, Harlow B. Blum

3

Court Reporter for the Hamilton County Court of

4

Common Pleas, do hereby certify that at the

5

same time and place stated herein, I recorded

6

in Stenotype and thereafter transcribed the

7

within 13

8

Transcript of proceedings is a true, complete,

9

and accurate transcript of my said stenotype

10
11
12

25 pages, and that the foregoing

notes.
IN

witness whereof,

I hereunto set my

hand this 5TH day of November, 2014.

13
14
15
16
17
18
19
20
21
22
23
24
25

HARLOW B. BLUM, RPR, RMR
Official court Reporter
Court of Common Pleas
Hami1 ton county, Ohio

